REVIEW OF NRC’S AGENCYWIDE DOCUMENTS ACCESS AND
       MANAGEMENT SYSTEM (ADAMS) PROJECT

                  OIG/99A-04
                        U.S. NUCLEAR REGULATORY COMMISSION
                          OFFICE OF THE INSPECTOR GENERAL

              REVIEW OF NRC’S AGENCYWIDE DOCUMENTS ACCESS AND
                     MANAGEMENT SYSTEM (ADAMS) PROJECT

                                    RESULTS OF REVIEW


                                        INTRODUCTION

In November 1998, the Office of the Inspector General (OIG) initiated a survey of the Nuclear
Regulatory Commission’s (NRC’s) Agencywide Documents Access and Management System
(ADAMS). The objective of our survey was to gather information on the current status and
planned implementation of the ADAMS project to determine if there was a need for further
review.

As a result of interviews with ADAMS project staff and other agency officials, and from our
analysis of documentation pertaining to the project, OIG identified a need to take a more in-depth
look at the project. For example, we were not able to obtain a Project Action Plan as defined in
the System Development and Life-Cycle Management (SDLCM) Methodology, a comparison of
actual cost to budget, or a detailed testing program. In addition, there were concerns about loss
of expected functional capabilities, staff turnover, Nuclear Documents System (NUDOCS)
migration, and funding. Therefore, in January 1999, OIG initiated a review of the ADAMS project.
Our review focused on three aspects of ADAMS -- Schedule, Performance, and Cost.

OVERALL OBSERVATION

Based on the information provided to us, we do not see any significant impediments to the
delivery of ADAMS, particularly based on the tentative revised schedules. Our analysis reflects
a ‘snapshot in time.’ It is clear that a number of critical elements remain to be achieved before
ADAMS is fully implemented.

At this point in time, it appears that the schedule will be delayed by a few months, from
October 1, 1999, to January 1, 2000. While the delivery of some functional requirements has
been delayed, it appears they should be in place by the time ADAMS becomes the NRC’s official
record-keeping system. It also appears that cost has not significantly increased over the
projected level. However, we did not analyze changes in the cost of ADAMS compared to the
expected functionality. We note that the agency has made some difficult decisions based on
cost/benefit to the agency.




                                               -2-
SCHEDULE

Objective:     To determine whether current dates for ADAMS deliverables appear reasonable.

There were two documents which set the original completion dates for ADAMS:

C   In a memorandum dated August 20, 1997, from the Chairman to the Chief Financial Officer,
    the Commission stated that it "supports the funding of the ADAMS system in FY 1998, which
    will ensure full implementation by the year 2000."

C   NRC's September 1998 Office of Management and Budget submission reflects June 1999
    as the date by which deployment will be completed and receipt of electronic submissions will
    begin.

Schedules prepared in September 1997 and March 1999 showed no change to the completion
of ADAMS installation by June 1999. As of September 1997 and January 1999, ADAMS was
scheduled to become NRC’s official record-keeping system effective October 1999.

Current Status:

NRC acceptance testing of ADAMS Release 1 was performed March 11 - March 15, and
resulted in additional work that needed to be done by Computer Sciences Corporation (CSC).
ADAMS was re-delivered to NRC on April 21 with additional NRC acceptance testing scheduled
to be performed during the period April 21 - May 7. At the conclusion of our field work, ADAMS
web page documents, dated April 7, 1999, revealed that schedules were being revised for
ADAMS installation and the two-day hands-on training course. Both ADAMS installation and
ADAMS two-day hands-on training of the NRC workforce are critical milestones on the ADAMS
schedule. As a result of the necessary rework of the software, there was an impact on the
scheduling of these key events. ADAMS is currently scheduled to become NRC’s official record-
keeping system effective January 1, 2000. While delivery dates have been changed for some
parts of ADAMS, we have not identified significant impediments to meeting the current
completion dates for ADAMS deliverables.

Opportunities for Future Improvements:

C   The ADAMS Master Schedule was developed some months after the initiation of work on
    ADAMS, and it does not contain information that should be included for such a schedule to
    be most effective in project management. For example, master schedules should include
    (1) dependencies, (2) critical path information, and (3) both baseline, and revised start and
    finish dates (and can include annotations related to changes). The schedule would then
    serve as a more useful tool to help manage large projects efficiently and effectively. SDLCM
    states that, where appropriate, all key interdependencies and/or critical paths should be
    identified.

C NRC personnel and contractors providing input to the master schedule should use the same
  software used to maintain the master schedule. This would facilitate master schedule
  compilation and updates.
PERFORMANCE

                                              -3-
Objective:     To determine whether the original goals and objectives established for the project
               will be met. The original goals and objectives, as presented in the Capital
               Planning and Investment Control (CPIC) document, identify the major
               components of ADAMS as document management (including search and
               retrieval), records management, workflow, and public access.

Current Status:

None of the major components of ADAMS will be delivered in full with Release 1. The intake and
distribution features (document management) for externally generated documents will be
delivered with Release 2. Workflow will be delivered in Release 1 with limitations that will be
addressed in training and added in future releases of the commercial-off-the-shelf (COTS)
software. Also, additional and deferred functionalities may be made available in these future
upgrades. Originally, Release 1 was to provide the functionalities for records management and
electronic information exchange (public access). These two areas will now be delivered in
Release 2, with records management becoming available concurrently with, or shortly after, the
electronic information exchange portion for external public access. It appears that all the
components identified in the CPIC will be in the final product.

Opportunities for Future Improvements:

NRC User Testing/Functional Requirements Testing

C   According to the SDLCM, detailed step-by-step procedures are to be developed for user
    testing. Procedures, based on the functional requirements being tested, would assist in
    providing assurance that errors could be effectively resolved by allowing replication of the
    steps taken before an error is encountered. Although procedures were addressed in the
    System Test and Acceptance Methodology Plan (STAMP), and the ADAMS White Paper for
    the various tests to be performed, they did not provide the detailed steps needed for
    replication of the testing.

C   Testers were chosen based on their prior training and expertise. However, during our
    observation of user testing, a number of testers indicated they did not believe they had
    adequate training on the software. In addition, a number of testers did not understand the
    meaning of all of the functional requirements they were responsible for testing.

As a result of not having detailed procedures, it appears that the testers’ understanding of the
functional requirements which failed during the initial testing was questioned when the results of
testing were reviewed. For example, forty-two functional requirements that originally failed were
accepted as passing in a retesting of the functional requirements. However, the testers’
understanding of those requirements that passed was not questioned. Based on these
observations, we think that some improvements could be made in the user testing area.



ADAMS Retesting




                                               -4-
C   We emphasize the importance of performing retesting in the production environment using a
    realistic data set to ensure adequate information is available for the deployment decision.

C   We would also emphasize the importance of performing remote access capability testing to
    ensure performance objectives related to regional offices, resident inspectors, and other off-
    site users can be met. Again, this information will be important for use in the deployment
    decision.

COST

Objective:      To determine whether the currently approved ADAMS budget is adequate and
                reasonable to cover the proposed deliverables within the proposed schedule.

Current Status:

ADAMS Budget

$12.675 million is not entirely reflective of ADAMS estimated design and implementation costs.
For example:

C   “Sunk costs” of $3,340K were not included in the ADAMS budget. This includes $2,994K of
    fiscal year (FY) 1994-96 funding and $346K of FY 1997 funding.

C   $863K funding for Task Assignment Control (TAC) C90156, “Design the Solution,” was not
    included in the ADAMS budget. However, TAC C90156 started after approval of the CPIC.

C   The budget covers contract support only, not NRC’s full-time equivalent (FTE). The ADAMS
    Project Manager recently indicated that 11-12 staff were dedicated full-time. Although this
    level represents a snapshot in time, the FY 1999 budget reflects a considerably lower level of
    4 FTEs related to ADAMS. NRC does not maintain a labor cost distribution system for the
    Office of the Chief Information Officer (OCIO) to account for the actual ADAMS-related effort.

Subsequent to CPIC approval, project needs for ADAMS became more defined and differed in
some areas from earlier projections. However, the original CPIC budget was never recast with
more relevant categories or budget estimates.1 As a result, OCIO managed the project to the
total budget, instead of to meaningful budget categories, and reasons for cost increases were
difficult to identify.

In February 1999, OCIO requested additional funding of $590K for ADAMS. This would raise the
ADAMS budget to $13,265K. In March 1999, $300K in additional funding was approved, raising
the ADAMS budget to $12,975K ($12,675K + $300K). The remaining $290K will be processed
as part of the Midyear Resource Review.




    1
        For example, “parallel processing” was budgeted for $624K; however, this budget line was never
        used.

                                                  -5-
There is one TAC in which the authorized amount exceeds the committed amount on the
FY 1998 ADAMS budget spreadsheet. Specifically, there is a $532K shortfall in funding
Modification 8 to TAC C90060. This item is also not currently recognized as a placeholder on
the FY 1999 spreadsheet and could cause an additional increase in the ADAMS budget. The
ADAMS Project Manager believes the $532K will not be necessary, but is still reconciling
hardware/software acquisitions and needs with the current funding level.

Other items which could cause additional budget increases are (1) the 3-month delay in ADAMS
becoming NRC’s official record-keeping system, and (2) corrective actions for Release 1 under
TAC C90235.

Costs

The ADAMS project has been managed largely by commitment. While this method addresses
the staff’s primary concern to protect against violating the Antideficiency Act, it does not allow
visibility into how much has been spent and how much is available for specific portions of the
project. There has been no concerted effort to roll up all contractor costs for comparison with
budget estimates.

Some costs are intermingled with non-ADAMS activities. For example, $150,000 was folded into
a $2.3 million contract for systems programming support services for Data General and Hewlett
Packard Minicomputers. Another example involved adding ADAMS funding to a major contract
(Sytel) for Next Generation Network services. Identification of costs to date does not appear to
be a priority.

Opportunities for Future Improvements:

C   Update the budget with realistic budget categories and budget estimates.

C   In accordance with the SDLCM requirements, collect actual cost data for comparing with
    budget estimates, computing variances, and determining any needed corrective actions.




                                                -6-
